Audit Report




OIG-11-060
SAFETY AND SOUNDNESS: Failed Bank Review of United
Americas Bank, National Association
February 24, 2011




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            February 24, 2011


            OIG-11-060

            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of United Americas Bank, National
                                  Association, Atlanta, Georgia


            This memorandum presents the results of our review of the failure of United
            Americas Bank, National Association (United Americas) located in Atlanta, Georgia.
            United Americas operated its branches in the Atlanta metropolitan area and was
            designated by the Office of the Comptroller of the Currency (OCC) as a minority-
            owned bank. OCC closed United Americas and appointed the Federal Deposit
            Insurance Corporation (FDIC) as receiver on December 17, 2010. As of
            September 30, 2010, United Americas had approximately $242.3 million in total
            assets and $193.8 million in total deposits. FDIC estimated that the loss to the
            Deposit Insurance Fund is $75.8 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of United Americas that was limited to (1) ascertaining the
            grounds identified by OCC for appointing the FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth
            review of the loss. In performing our review we (1) examined documentation
            related to the appointment of FDIC as receiver, (2) reviewed OCC reports of
            examination for the 5 year period before the bank’s failure, and (3) interviewed
            OCC personnel.

            We conducted this performance audit during December 2010 and January 2011 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and conclusions
            based on our audit objectives. We believe that the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-060
Page 2

Causes of the United Americas Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced a substantial depletion of assets or earnings due to unsafe or unsound
practice, (2) the bank’s losses depleted all or substantially all of its capital and there
was no reasonable prospect for the bank to become adequately capitalized, and (3) the
bank was critically undercapitalized.

The primary causes of the United Americas failure were excessive concentrations in
commercial real estate (CRE), coupled with inadequate risk management practices, a
lack of core funding sources, and weak oversight by the bank’s board of directors. The
bank’s loan portfolio was also heavily concentrated in mortgage loans made to first-
time homebuyers using individual tax identification numbers (ITIN).1 These loans were
referred to in OCC documentation as the ITIN loan portfolio. In 2007, the bank’s ITIN
loan portfolio began to deteriorate when many of the ITIN borrowers became
unemployed as a result of more stringent Georgia immigration laws. In 2008, the
bank’s CRE and ITIN loan portfolios significantly deteriorated due to the rapid decline
in Atlanta’s real estate market. The bank’s board and management were slow to react
to increasing levels of problem loans and failed to take effective corrective action to
address regulator criticisms. By 2010, numerous unsafe and unsound credit practices
resulted in declining asset quality and increasing credit losses and expenses, which
rapidly depleted earnings and eroded capital.

Conclusion
Based on our review of the causes of the United Americas failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. While the bank’s lending to foreign nationals was a business
strategy we have not encountered in our prior reviews of bank failures, risky
concentrations in loan products has been a consistent theme that led to most bank
failures we have reviewed. Accordingly, we have determined that a more in-depth
review of this bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of the failure
of United Americas and that it had no concerns with our determination that an in-
depth review of the bank’s failure was not warranted. The response is provided as

1
 The Internal Revenue Service issues ITINs, regardless of immigration status, to foreign nationals
and others who have federal tax reporting or filing requirements and do not qualify for social
security numbers.
OIG-11-060
Page 3

Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Rashmi Bartlett, Audit Manager, at (202) 927-5839.

Attachments
         OIG-11-060

       Attachment 1
Management Response
                                                   OIG-11-060

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
